                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106


July 14, 2011

Report Number: A-07-11-00358

Mr. Peter S. Moore
Vice President of Government Programs
GHI Medicare
25 Broadway
New York, NY 10004

Dear Mr. Moore:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Local 153 Pension Plan at Group Health Incorporated for the Period of April 1, 1987, to
January 1, 2009. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00358
in all correspondence.
                                          Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Peter S. Moore

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


     REVIEW OF THE PENSION
SEGMENTATION REQUIREMENTS FOR
 THE LOCAL 153 PENSION PLAN AT
  GROUP HEALTH INCORPORATED
       FOR THE PERIOD OF
APRIL 1, 1987, TO JANUARY 1, 2009




                        Daniel R. Levinson
                         Inspector General

                            July 2011
                          A-07-11-00358
                    Office of Inspector General
                                    http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency,
and effectiveness of departmental programs. To promote impact, OEI reports also present
practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With investigators
working in all 50 States and the District of Columbia, OI utilizes its resources by actively
coordinating with the Department of Justice and other Federal, State, and local law enforcement
authorities. The investigative efforts of OI often lead to criminal convictions, administrative
sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). These contracts terminated on July 18, 2008, but GHI continues to administer
Medicare operations under a Coordination of Benefits contract with CMS.

During the audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan; the GHI Cash Balance Pension Plan; and the EmblemHealth Services Company
Employees’ Retirement Plan. This report will address the pension assets for the Local 153
Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Accordingly, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether GHI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   identifying the Medicare segment’s pension asset base (initial allocation) as of
       April 1, 1987, and

   •   updating the Medicare segment’s pension assets from April 1, 1987, to January 1, 2009.

SUMMARY OF FINDINGS

GHI did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when identifying the Medicare segment’s initial asset base and when
updating Medicare segment assets to January 1, 2009. GHI identified Medicare segment pension
assets of $28,362,719; however, we determined that the Medicare segment pension assets were
$15,753,896 as of January 1, 2009. As a result, GHI overstated the Medicare segment pension
assets by $12,608,823 as of January 1, 2009.




                                                 i
RECOMMENDATIONS

We recommend that GHI:

   •   decrease Medicare segment pension assets as of January 1, 2009, by $12,608,823 and
       recognize $15,753,896 as the Medicare segment pension assets;

   •   allocate contributions and prepayment credits to the Medicare segment based on
       separately calculated pension costs; and

   •   establish controls to ensure compliance with Federal regulations and the Medicare
       contracts’ pension segmentation requirements when allocating contributions and
       prepayment credits, benefit payments, participant transfers, and investment earnings and
       expenses.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our findings and recommendations for
our first and third recommendations. However, GHI did not directly address our second
recommendation. GHI’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although GHI did not specifically address our second recommendation, its agreement with our
third recommendation meant that GHI had also effectively agreed to allocate contributions and
prepayment credits to the Medicare segment based on separately calculated pension costs, as
stated in our second recommendation. Accordingly, we maintain that all of our findings and
recommendations remain valid.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Group Health Incorporated and Medicare .......................................................... 1
              Federal Requirements ......................................................................................... 1
              Pension Segmentation ......................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 3

          MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION) .......................... 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS........................................ 4
              Federal Requirements ......................................................................................... 4
              Contributions and Prepayment Credits Understated ........................................... 5
              Benefit Payments Overstated .............................................................................. 6
              Net Transfers Understated .................................................................................. 7
              Earnings, Net Expenses Overstated .................................................................... 7

          RECOMMENDATIONS ................................................................................................ 9

          AUDITEE COMMENTS................................................................................................ 9

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 9

APPENDIXES

          A: GROUP HEALTH INCORPORATED STATEMENT OF MARKET VALUE
             OF THE LOCAL 153 PENSION PLAN ASSETS FOR THE PERIOD
             APRIL 1, 1987, TO JANUARY 1, 2009

          B: AUDITEE COMMENTS




                                                                     iii
                Glossary of Abbreviations and Acronyms

CAS   Cost Accounting Standards
CMS   Centers for Medicare & Medicaid Services
FAR   Federal Acquisition Regulation
GHI   Group Health Incorporated
WAV   weighted average value




                                    iv
                                       INTRODUCTION

BACKGROUND

Group Health Incorporated and Medicare

Group Health Incorporated (GHI), an EmblemHealth Company, administered Medicare Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). These contracts terminated on July 18, 2008, but GHI continues to administer
Medicare operations under a Coordination of Benefits contract with CMS. GHI also performs
Medicare work as subcontractor on the Medicare Secondary Payer Recovery and Retiree Drug
Subsidy contracts.

During the audit period, GHI had three defined benefit pension plans: the GHI Local 153
Pension Plan; the GHI Cash Balance Pension Plan; and the EmblemHealth Services Company
Employees’ Retirement Plan. Effective August 31, 2003, benefits accrued under the Local 153
Pension Plan for management employees were frozen. On September 1, 2003, GHI established
the GHI Cash Balance Pension Plan for management employees. On January 1, 2008, GHI froze
the GHI Cash Balance Pension Plan and employees were given an opportunity to elect
participation in the EmblemHealth Services Company Employees’ Retirement Plan, effective
January 1, 2008. This report will address the pension assets for the Local 153 Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.




                                                 1
OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether GHI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    identifying the Medicare segment’s pension asset base (initial allocation) as of
        April 1, 1987, and

   •    updating the Medicare segment’s pension assets from April 1, 1987, to January 1, 2009.

Scope

We reviewed GHI’s identification of its Medicare segment, computation of the initial assets
allocated to the Medicare segment, and its update of Medicare segment pension assets from
April 1, 1987, to January 1, 2009.

Achieving our objective did not require us to review GHI’s overall internal control structure. We
reviewed controls relating to the identification of the Medicare segment, computation of the
initial assets allocated to the Medicare segment, and the update of the segment’s assets to ensure
adherence to the Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at GHI in New York, New York, during September 2008 and
July 2010.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •    We reviewed the annual actuarial valuation reports prepared by GHI’s actuarial
        consulting firms, which included the pension plan’s assets, liabilities, normal costs,
        contributions, benefit payments, investment earnings, and administrative expenses. We
        used this information to calculate the Medicare segment assets.

   •    We obtained and reviewed the pension plan documents and Department of Labor/Internal
        Revenue Service Forms 5500 used in calculating the Medicare segment assets.

   •    We interviewed GHI staff responsible for identifying the Medicare segment to determine
        whether the segment was properly identified in accordance with the Medicare contracts.

   •    We reviewed GHI’s accounting records to verify the segment identification and benefit
        payments made to the Medicare segment.



                                                 2
   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate the Medicare segment pension assets from April 1, 1987, to
       January 1, 2009.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of GHI’s pension costs claimed for
Medicare reimbursement, to be issued in a subsequent report, and used the information obtained
during that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

GHI did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when identifying the Medicare segment’s initial asset base and when
updating Medicare segment assets to January 1, 2009. GHI identified Medicare segment pension
assets of $28,362,719; however, we determined that the Medicare segment pension assets were
$15,753,896 as of January 1, 2009. As a result, GHI overstated the Medicare segment pension
assets by $12,608,823 as of January 1, 2009.

Appendix A presents details on the Medicare segment’s pension assets from April 1, 1987, to
January 1, 2009, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                      Table 1: Summary of Audit Adjustments
                                                 Per Audit   Per GHI               Difference
Medicare Segment Asset Base (Initial Allocation) $3,916,166 $6,696,841             ($2,780,675)

Update of Medicare Segment Assets
  Contributions and Prepayment Credits           3,123,671 1,292,715      1,830,956
  Benefit Payments                               6,926,470 7,477,623        551,153
  Transfers                                        822,966          0       822,966
  Earnings, Net Expenses                        14,817,563 27,850,786 (13,033,223)
Under/(Over)statement of Medicare Pension Segment Assets              ($12,608,823)




                                               3
MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION)

The Medicare contracts provide for separate identification of the pension assets for the Medicare
segment. The identification involves the allocation of assets to the Medicare segment as of the
first pension plan year after December 31, 1985, in which the salary criterion was met. The
allocation is to use the ratio of the actuarial liabilities of the Medicare segment to the actuarial
liabilities of the total plan, as of the later of the first day of the first plan year after
December 31, 1980, or the first day of the first pension plan year following the date such
Medicare segment existed. This ratio is known as the asset fraction.

GHI did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when identifying the Medicare segment’s initial asset base.
Specifically, GHI overstated the initial Medicare segment asset base by $2,780,675 as of
April 1, 1987, because it incorrectly included actuarial liabilities from its terminated Florida
Medicare operations in the numerator of its asset fraction. GHI calculated an asset fraction
of 21.1998 percent and identified $6,696,841 as the Medicare segment asset base as of
April 1, 1987. We calculated the asset fraction to be 12.3761 percent and identified $3,916,166
as the initial Medicare segment pension asset base as of April 1, 1987. Thus, GHI overstated the
initial Medicare segment pension assets by $2,780,675 as of April 1, 1987.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

GHI did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment assets to January 1, 2009.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       . . . any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

               1. The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,

               2. Less than a majority of the salary dollars are charged to the Medicare
                  agreement/contract, and these salary dollars represent 40% or more of
                  the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to




                                                 4
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Prepayment Credits Understated

GHI understated contributions and prepayment credits by $1,830,956 because its update
methodology did not equitably assign pension contributions to the Medicare segment. More
specifically, GHI did not comply with the Medicare contracts when it used allocated pension
costs rather than segment pension costs to allocate contributions to the Medicare segment. As a
result, GHI understated the Medicare segment pension assets by $1,830,956.

Beginning with fiscal year 1988, the Medicare contracts require a separate calculation of pension
costs for the segment if such calculation (as opposed to an allocation) materially affected the
amount of pension costs charged to the contracts.

In accordance with the Medicare contracts, we computed both an allocated and a separately
calculated pension cost. We determined that, beginning with plan year 1988, the use of an
allocated pension cost was materially different when compared to a separately calculated pension
cost. The Medicare contracts require that, in cases of material difference, a separately calculated
pension cost be used. Therefore, in our calculations we based the audited contributions and
prepayment credits for plan years 1988 through 2008 upon a separately calculated pension cost,
pursuant to the Medicare contracts.

For ease of understanding, Table 2, on the following page, includes only the years in which there
was a variance between GHI’s and our calculations of allocated pension contributions and
prepayment credits.




                                                 5
                Table 2: Comparison of Allocated Pension Contributions
                Year     Per Audit        Per GHI          Variance
                1987               $0         $105,660       ($105,660)
                1988                0          (52,830)           52,830
                1995          175,169            34,121          141,048
                1997                0            14,311         (14,311)
                1998                0            16,287         (16,287)
                1999                0            43,563         (43,563)
                2000                0            46,672         (46,672)
                2001                0            41,622         (41,622)
                2001                0            70,200         (70,200)
                2003                0            83,943         (83,943)
                2004          402,012            70,643          331,369
                2005          508,823           149,131          359,692
                2006          907,417           368,262          539,155
                2007        1,004,099            14,591          989,508
                2008          126,151           286,539        (160,388)
                Total      $3,123,671       $1,292,715       $1,830,956

Benefit Payments Overstated

GHI overstated benefit payments by $551,153 because it incorrectly included benefit payments
from its terminated Florida Medicare operations during 1989 through 2008. As a result, GHI
understated the Medicare segment pension assets by $551,153.

A comparison of GHI’s and our calculations of benefit payments from the Medicare segment
appears in Table 3.




                                              6
               Table 3: Comparison of Medicare Segment Benefit Payments
               Year      Per Audit        Per GHI          Variance
               1987           $72,769          $72,769                 $0
               1988            71,080           71,080                  0
               1989           137,433          164,634             27,201
               1990           158,850          186,051             27,201
               1991           182,499          113,139           (69,360)
               1992           235,137          262,338             27,201
               1993           245,362          272,563             27,201
               1994           246,564          271,492             24,928
               1995           248,777          273,705             24,928
               1996           249,493          273,363             23,870
               1997           295,434          319,304             23,870
               1998           327,271          357,850             30,579
               1999           355,357          392,424             37,067
               2000           359,032          396,099             37,067
               2001           378,081          415,148             37,067
               2001           378,081          415,148             37,067
               2003           449,557          486,624             37,067
               2004           466,457          500,947             34,490
               2005           489,986          523,833             33,847
               2006           501,130          534,977             33,847
               2007           568,197          602,044             33,847
               2008           509,923          572,091             62,168
               Total       $6,926,470       $7,477,623          $551,153

Net Transfers Understated

GHI understated net transfers into the Medicare segment by $822,966 because it did not adjust
the Medicare segment pension assets for participant transfers. The CAS requires an adjustment
to be made for transfers if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. We determined that, beginning in plan year 2005,
participant transfers materially affected the segment’s ratio of pension plan assets to actuarial
accrued liabilities. Our audited update therefore included an adjustment to the Medicare segment
pension assets, beginning in plan year 2005, for participant transfers and for identified net
transfers into the Medicare segment, of $822,966. This understatement of the net transfer
adjustment resulted in an understatement of the Medicare segment pension assets of $822,966.

Earnings, Net Expenses Overstated

GHI overstated investment earnings, less administrative expenses, by $13,033,223 for the
Medicare segment because it (a) did not allocate earnings, net expenses using the WAV of assets
as required by the CAS for plan years starting in 1996, (b) incorrectly computed the initial
Medicare segment asset base (discussed above), and (c) used incorrect contribution and
prepayment credit amounts, benefit payment amounts, and transfer amounts (all discussed


                                               7
above) to develop the Medicare segment pension asset base as of January 1, 2009. In our audited
update, we allocated earnings and expenses based on the applicable CAS requirements.

A comparison of GHI’s and our calculations of earnings, net expenses allocated to the Medicare
segment appears in Table 4.

            Table 4: Comparison of Medicare Segment Earnings, Net Expenses
            Year       Per Audit           Per GHI            Variance
            1987              $55,632             $95,134         ($39,502)
            1988              286,916             502,219         (215,303)
            1989              776,083           1,358,553         (582,470)
            1990            (127,841)           (225,832)            97,991
            1991            1,036,490           1,852,903         (816,413)
            1992              432,392             790,292         (357,900)
            1993              702,355           1,305,022         (602,667)
            1994            (167,636)           (316,623)           148,987
            1995            1,497,043           2,879,818       (1,382,775)
            1996              812,664           1,554,028         (741,364)
            1997            1,390,516           2,699,020       (1,308,504)
            1998            1,353,138           2,669,031       (1,315,893)
            1999              553,834           1,113,214         (559,380)
            2000              638,622           1,305,933         (667,311)
            2001            (295,977)           (621,792)           325,815
            2001            (597,136)         (1,286,650)           689,514
            2003            1,153,561           2,569,298       (1,415,737)
            2004              732,432           1,551,127         (818,695)
            2005              536,145           1,127,326         (591,181)
            2006            1,070,922           1,896,351         (825,429)
            2007            1,576,034           2,687,287       (1,111,253)
            2008            1,401,374           2,345,127         (943,753)
            Total        $14,817,563         $27,850,786      ($13,033,223)




                                               8
RECOMMENDATIONS

We recommend that GHI:

   •   decrease Medicare segment pension assets as of January 1, 2009, by $12,608,823 and
       recognize $15,753,896 as the Medicare segment pension assets;

   •   allocate contributions and prepayment credits to the Medicare segment based on
       separately calculated pension costs; and

   •   establish controls to ensure compliance with Federal regulations and the Medicare
       contracts’ pension segmentation requirements when allocating contributions and
       prepayment credits, benefit payments, participant transfers, and investment earnings and
       expenses.

AUDITEE COMMENTS

In written comments on our draft report, GHI agreed with our findings and recommendations for
our first and third recommendations. GHI did not specifically address our second
recommendation.

Specifically, GHI agreed to adjust the segmented assets as of January 1, 2009, as recommended
in our draft report. GHI also agreed to establish controls to ensure compliance with applicable
Federal regulations including the FAR, CAS, and the Medicare contract requirements.

GHI’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although GHI did not specifically address our second recommendation, its agreement with our
third recommendation meant that GHI had also effectively agreed to allocate contributions and
prepayment credits to the Medicare segment based on separately calculated pension costs, as
stated in our second recommendation. Accordingly, we maintain that all of our findings and
recommendations remain valid.




                                               9
APPENDIXES
                                                                                                                                                                                         Page lof5

                                  APPENDIX A: GROUP HEALTH INCORPORATED 

                       STATEMENT OF MARKET VALUE OF THE LOCAL 153 PENSION PLAN ASSETS 

                                FOR THE PERIOD APRIL I, 1987, TO JANUARY 1,2009

                 Descri tion                                                                                                      Medicare Se ment

 Assets April 1, 1987                            $31,642,971 .                                                                                                          $3,916,166

 Prepayment Transfer 
                                                              o
 Contributions 
                                             88,331                                     88,3.~1 
                                                                                   o
 Earnings 
                                          -603,391"r                                     ..g.~,,71~... , 
                                                              74,676
 Benefit Paym~!~." 
                                    ~7~":~1(j2L                                  "(~gg,Q?7) .       
                                                         (72,769)
 Expenses 
                                          .(1'?3,~Z22L                                 "..... (1]4,83.51i                                                              (19,044)

 AssetsJanllary 1, 1988                          $31,307,968                                      $27,408,939                                                           $3,899,029

 Prepayment Transfer" 
                                                              o                                                                                                              o
 Contributions 
                                                                                                                                                                                    o
 Earnings 
                                       .2,4~~Q2.•..                                                                                                                   303,238
 Benefit Paymellts 
                                Qg~,~g~)L                                                                                                                    (71,08Q)
 Expenses 
                                         (131,060)'                                                                                                                   (16,32~


 Assets January 1, 1989                          $32,908,514                                                                                                            $4,114,865

 Prepaymen([~lI.11sfe.r .... 
                                                                                                                                                                      o
   Contributions 
                                                                                                                                                                                  o
.. Earnings                                         ~37"5,J65 :                                                                                                                797,248
   Benefit Payments                                  ,021,986)'                                                                                                               (13),133)
   Expenses                                          (169,266)                                                                                                               . (21,165)

Assets January I, 1990                           $38,093,227                                      $33,339,712       i                                                   $4,753,515

 PrepaymentTransfe! 

                                                            "··---Of .
                                                                                     o                                                                                                              o
 Contributions 
                                                                                                                                                                                    o
 Earnings 
                                             (S3i929jl··­                                  (728,1 16)i                                                              (103,813)
 Benefit Payments 
                                (1,129,751)                                        (970,901)'                                                               (158&50)
 Expenses 
                                          (192,551 )                                       (168,523);                                                               ."(2~JQ?8)

 Assets January 1, .19?1                                                                          $31,472,172                                                           $4,466,824

 prepayment TEllllsfer .                                                                                                                                                                            o
 Contributions 
                                                                                                o                                                                                   o
 Ilarnings 
                                        8,452,753                                       7,402,168                                                               I,Q50,585
 Benefit Payments 
                                (1,208,087)                                     (I,025,588)i                                                                (1g~99)
 Expenses 
                                         ~..
                                                       (113,404)
                                                         ...  ........;
                                                        -"""'."   -----,.,   .,,",., "       ,

                                                                                                       (99,30?);                                                                  (1~,095)


 Assets January),      l?J?                      $43,070,258                             i                                                                              $5,320,815

 Prepayment Transfer                                                                 o
 Contributions 
                                                                     o                          °1                                                                                  o
 EaI11ings 
                                   .".._3,621,909                                       3,174,465 I                                                                  447,444
 Benefit Payments 
                                 (1,396,899)                                    (1,161,762)              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..(235, 13 7)
 Expenses 
                                        " "m!,~391L                                     .(10~JZE)                                                                                        (15,0522

 A~setsJanuary      1, 1993                      $45,173,429                                      $39,655,359                                                           $5,518,070
                                                                                           Page 2 of5




                 Descri tion                                             Medicare Se ment

AssetsJanuary 1,1223           $45,173,429                                         $5,518,070

})repayment Transfer                        o                  0     1                           o
 Contributions                              o                 0'                                 o
EaIl!~llgs                       5,871,705            5,154,459 I                      712,246 

Benefit. Pa)'lllents. 
         (1,501,560):         (1,.?~.6,198)                    (245,362) 

Expenses 
                        (121,9°12"1.       ..(107,Ol))                       (14,891) 


Assets January 1, 1994         $49,421,670          $43,446,607                    $5,975,063

Prepayment Transfer                         o                  o                                 o
Contributions                               o                  o                                 o
Earnings                         _(215,1!7~2,.        i~~J,5?2) ,                     (114,356) 

Benefit Payments .              (!,,6.1.~, 1~3) L    (1,322,.~19).,                   (246,564) 

Expenses                          (41Q,,~2?)1          Q~Z,1}7); 
                      (53,2~Q)


Assets January 1, 1995         $46,388,912          $40,828,049                    $5,560,863

Pr~p~)'lll~ntTransfer 
                     o                  o
Contributions 
                  2,408,626 •        .. ~,~~1.1~7.i                     175,169 

Earnings 
                      12:951:454      r    11,~28,2Q.l     .               1,5g553 

Benefit Pa)'lllents 
           (l,s:ii641):         ( !.56~,86?)                     (248,777) 

Expenses 
                        (463,070)1            (407,560)                      (55,510)

A:ssetsJanuary 1, 1996         $59,471,278          $52,486,980      !              $6,984,298

Prepayment Transfer 
                                                                            o
Contributions 
                             0,
                                            .+                                                   o
Earnings 
                       7,452,673 i 
        6,5Z~.,632                        874,Q1 1
Benefit Pa)'lllents 
           ( },964,i30)1' 
     (1,714,637L                    _(2.19,49]) 

Expenses 
                         (523,342) 
         (461,965);                       (61,177) 

                                                                     i

A:sset~Jallllary    1,1997                                                          $7,547,469

Prepayment Trlllls[~~ 
                                                                          o
Contributions 
                  . 2QQ,Q3~ ,                                                     o
Earnings 
                      12,442,558 i                                         1,1~1,~5§
BenefitPa)'lllents 
            (2,248,949)                                           (29 5 ,.<t~1)
Expenses 
                        (545,356)                                         ...... (~3,Z4_Q)

Assets January 1,1998 .        $74,984,764      I   $66,342,213                     $8,642,551

I'repa)'lllent .Trllllsfer 
                0'                                                   o
Contributions 
                 .1,Q~1,~nL            1,024 

gaIl!ing~                       12,385,083           10,960,974 
                    1,4~1,IQ2
l3enefit Payments               (2,497,169)          (2,169,898                    _.. .ml,~?D
Expens~s                        .. (617,218)           (546,247)                    ........QQ,'!11) 

Assets January!,.l229          $85,279,792          $75,611,374                     $9,668,418
                                                                                                                                  Page 3 of5




                                                Descri tion                                                Medicare Se ment

                                                                $85,279,792                                              $9,668,418

    Pr9?~~e!ltI'ransfer                                                      o                                                          o
    Contributions
       , •• ~_."". . . . . . . .   ""'     H

                                                                  2,741,584 
                                                           o
     E~!lli!t~s                                                  .5,579,105 
                                                628,44? .
     Benefjt!,ayments 
                                           (~'?11,~58) 
                                             (355,357)
     Expenses .. 
                                                 (6~1}00) 
                                                (74,61 U

  ...Assets January 1,2000                                      $90,185,523               $80,318,628 	                  $9,866,895

    Prepayment Transfer 
                                                   u.ou;                    o
    Contributions 
                                               3,361,4~7Ml               3,361,467 

    Earnings 
                                                           .........)i..
                                                                  6,557,672                 5,842..816 

    Benefit Payments 
                                           (3,04 7,6~52L ...         (2,688,653) 

    Expenses 
                                                     (699,328r~                (623,094)

                                                                $96,357,649               $86,211,164 	                $10,146,485

     Prep~~t:!lt.Tr.~~ft:r.                                                  o	                                                         o
     Contributions                                                1,1.6J,.143;
     E~iIl.s.s ....                                               (1,8gY~16)
     Benefit Payntents                                          . (3,263,5~4)
     E~ellses .....                                           ....(I,0~7,4~1)

     Assets January 1,2002                                      $94,710,361 i             $85,237,934

     Prepayment Transfer                                                                             o
     Contributions
     Earni!tgs ........... 

     Bt:!l.efitf'~yntt:nts 

     E~e,!1.!',es 



    .Assets January 1,2003                                                                $82,375,367

      ...	f'repayment Transfer 
                                                                     o
           Contributions 
                                         7,664,540                7,664,540                                   o
           Earnings 
                                             13,891,610               12,626,419                      1,~6.?,12I
.......... I3enefit Payments                                      (4,162,610)'             (3,713,053)                       (44?,?57)
         .I::xpenses                                              (1,225,68?21             (1,1 14,055):         . . . . . ._.. 1IJ..! ,630)
     A~.s~t~.J~.\Ill!YJc.200:4.                                $107,040,432                                              $9,201,214

     P~epayntt:.I!!.I!~sfeE" .....                                           o
     Contributions
      ___      ~.~o                ."."o._".~
                                                                 ~§2§?,§78
     E~iIlgs                                                      ?,?..~,668
     Bt:Il.t:.fit.g~yntl:ll.!~....                               .(?,1?'h.091).
     E~Pt:Il.~t:,S'"M''' .                                      .... J65~!?97)

     ASS~ts}~ull!Y                               1,2005        $137,064,287              $127,195,086 i                  $9,869,201
                                                                                                                                         Page 4 of5


                 Descri tion                            TotalCom an                                               Medicare Se ment

   Assets January 1,2005                                    $137,064,287                $127,195,086 '                          $9,869,201

   Prepayment Transfer                                                       O·              (508,823)                              508,823
   Contributions                                                6,000,000                   6,000,000 !                                        o
   Earnings                                                     8,451,028                  },814,426.L                              ~36,602
   Benefit Payments                                            (5,091,327)                 (4,601,34 I}                          .. (489,9§~2
   Expenses                                                    (1,333,5~@;                 (1,233,139)'                             (IOO,4§?)
                                                   I

   Transfers                                  1L                             0'            (1.,.~5,3,.74~1!                     ...I.,I~.~.,.7.1~
   Assets Januaryl, 2006                                    $145,090,392                $133,312,467      I                    $11,777,925
                                                                                                    . ~~J
   Pn:paymentIransfer                                                 "
                                                                             0]
                                                                          ,,#.~   ~~            (90?,4172L                     .~90?,'!!L
   Contributions                                              .. 4..1Z4,55~.1                  4, 174,?J.§i                                    o
   ~arnings                                                   .1,3,7 27,?§?t..                12,527,154  I
                                                                                                                                 1,?OQ,~~
   Benefit J>ayments                                          ,<5,§~?,905)j~.          ..... "{S;36S:'775)t                       J?O},1,30)
   Expenses                                                    (I,4~5,lQ9),                (L??5,202)I                             (122,~Q72
   Transfers                                                                 O·             .Q41,31~2~                              ~11,312

    Assets January 1,2007                                   $155,637,917 '              $142,038,471                           $13,599,446

    Prepayment Transfer                                                      o»>r          (I.,QQ4!Q~n.~ .                       ..I.,QQ1,Q~~.
    Contributions                                              13,488,137                  13,488,137 :                                        o
    Earnings                                                   lM!5,8,!Oj                  16,911,953
                                                                                               ........ I
                                                                                                     _.,. 
                    .!~Q,3,JL8L
    Be.n.e[!tPayment~                                          (6,?36,124)1                (5,96?,9~Z);                           (5~~,}~?l
    Expenses                                                   n,3.96,?55)i                (1,2~~!QO?) I.                         {1??&?})
    Transfers                                                                o               (187,101)1                            1.g}Ql
                                                                                                          I
                                                            $179,808,915                $164,010,432      !                    $15,798,483
                                                                                                          I
   Prepayment Transfer                                                       o               (126,151)i                             I.~,}J.I.
   Contributions                                               11,000,000                .!1.,OOQ,OOO     !                                    o
   Earnillgs                                                   1.?,Lll!~?3               . !~§?2,33'~f                           1.,:4.~.~,.617
   Benefit Payments                                            (7,001,856) •               (6,491,933) ,                          .(?09,~~~)
   Expenses                                                    (1,013,691)                   ~2?L4482[                           .~ (~.~,~1?2
   Transfers                                                                                J,Qgl~~+ ...                        (1,062,} 89)

    Asst:~January    I, 2009                                $199,905,321                $184,151,425 .
    Per GHI                                   ,&;         $199,905,321          $171,542,602 I
                                                ------~~~~~------~~~~~------------~~~~
    Asset Variance                            2L.;========::::.:$09===,;;,$~12~,6~0~8,~82~3=ii-=====~-=;;;,;.;;,o.;;,,:.;~



FOOTNOTES

 11 We calculated the Medicare segment pension assets initial allocation based upon our computed asset fraction (12.3761
                                                                                                                    percent). The
    amounts shown for the "Other" segment represent the difference between the Total Company and the Medicare segments. All pension
    assets in this appendix are shown at market value.

 Y. We obtained Total Company contribution amounts from the Department of LaborlIn ternaI Revenue Service Forms 5500 (DOLlIRS
    5500). We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target
    divided by the Total Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and
    accounted for in the "Other" segment until needed to fund pension costs in the future.

 Jl. We obtained investment earnings from DOLIIRS 5500s. We allocated investment earnings based on the market value of Medicare
   assets at the beginning of the plan year after adjustments for prepayment credits and participant transfers. For years starting with 1996,
   we allocated investment earnings based on the ratio of the segment's weighted average value (WA V) of assets to total company WAV of
   assets as required by the Cost Accounting Standards (CAS).
                                                                                                                                         Page50f5




1{ We based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from
   documents provided by Group Health Incorporated (GHI).

~     We allocated administrative expenses to the Medicare segment in proportion to investment earnings as required by the CAS.

§L 	Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements
    before current year contributions in order to avoid incurring unallowable interest costs. Prepayment credits are maintained in the
    "Other" segment and transferred to the Medicare segment as needed to cover funding requirements.

l!.   We identified participant transfers between segments starting in plan year 2005 by comparing valuation data files provided by GHI. The
      CAS requires an adjustment to be made for transfers only if the transfers materially affect the segment's ratio of pension plan assets to
      actuarial accrued liabilities. Asset transfers were equal to the actuarial liability determined under the accrued benefit cost method in
      accordance with the CAS.

fu'   We obtained total asset amounts as of January 1,2009, from documents prepared by GHI's actuarial consulting firms.

2!.. The asset variance represents the difference between our calculation of Medicare segment pension assets and GHI's calculation of the
      Medicare segment pension assets.
                      APPENDIX B: AUDITEE COMMENIfS




  GlHI
  June 24, 2011

  Mr. Patrick J. Cogley 

  Regional Inspector General for Audit Services 

  Office of Inspector General 

  Office of Audit Services 

  Region VII 

  601 East Ith Street, Room 0429 

  Kansas City, Missouri 64106 


                      Re: OIG Report March 2011, A-07-II-00358

  Dear Mr. Cogley:


  This response is in regard to the subject repol1.

  GHI agrees to make the adjustment to segmented assets as of the January 1,2009 plan
  year as recommended in the draft audit report. It is our understanding that the additional
  plans from the audit periods are currently being audited and those results will be ready in
  the next 6 months. Once all plans have been audited we would like to address the proces~
  to settle all of these periods.

  GHI agrees to establish controls to ensure compliance with applicable Federal regulations
  including the Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS)
  and Medicare contract requirements concerning segmentation of pension activity
  including contributions, prepayment credits, benefit payments, participant transfers,
  investment earnings and administrative expenses.


  Please let me know if you have any questions regarding this letter.


  Sincerely,
                      (1,of

 '8r~S'           I '
                         fl~
                         '. - 't.-Z.....
\. 	 Peter S. Moore
     Vice President


                                        Grollp Health Incorporated
                                 25 Broadway, New York,:-..IY 10004-1010
                                         www.ghimedicare.com
